No. 20-1120

In the Supreme Court of the United States
MELISSA BELGAU, ET AL.,
Petitioners,
v.
JAY INSLEE, ET AL,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief Amicus Curiae
of Cara O’Callaghan, Joanne Troesch, Ifeoma Nkemdi, Chelsea Kolacki, And
Michelle Cymbor In Support Of Petitioners contains 4,260 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 17, 2021
/s/ Daniel R. Suhr
Daniel R. Suhr
Counsel of Record
LIBERTY JUSTICE CENTER
208 LaSalle St., Ste. 1690
Chicago, IL 60604
(312) 637-2280
dsuhr@libertyjusticecenter.org

